                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




MEMORANDUM FOR: The Honorable Edmund S. Hawley
                Assistant Secretary
                Transportation Security Administration

                          R. David Paulison
                          Under Secretary
                          Federal Emergency Management Agency

FROM:                     Richard L. Skinner
                          Inspector General

SUBJECT:                  Audit of Transportation Security Administration
                          Continuity of Operations Program


Attached for your action is our report Audit of Transportation Security Administration Continuity of
Operations Program. We have incorporated comments received from the Transportation Security
Administration (TSA) and the Federal Emergency Management Agency (FEMA) as Appendix B to
this report. The complete report has been designated “Sensitive Security Information” because it
contains information that should not be disclosed to the public.

This report contains four recommendations, three to TSA and one to FEMA. TSA concurred with
their three recommendations and has made significant progress in addressing our concerns. We
consider the recommendations resolved but will remain open until implementation is complete.
While FEMA concurred with Recommendation #4, the agency did not tell us specifically what
actions it intends to take in order to resolve the recommendation. Therefore, we consider the
recommendation unresolved and open. Please advise our office within 90 days of the date of this
memorandum of progress made in implementing your respective recommendations and the date by
which each recommendation will be fully implemented.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
reports to appropriate congressional committees with oversight and appropriation responsibilities
over DHS.

Should you have any questions, please contact me, or your staff may contact David M. Zavada,
Assistant Inspector General for Audits, at (202) 254-4100.
DEPARTMENT OF HOMELAND SECURITY
                Office of Inspector General

      Transportation Security Administration
        Continuity of Operations Program

                                   (Redacted)




The Department of Homeland Security, Office of Inspector General, has redacted this report for public
release. A review under the Freedom of Information Act will be conducted upon request.




                              Office of Audits

OIG-06-60                                                         August 2006
                                                                                   Office of Inspector General

                                                                                   U.S. Department of Homeland Security
                                                                                   Washington, DC 20528




                                      August 28, 2006


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

This report assesses the strengths and weaknesses of the Transportation Security Administration
(TSA) Continuity of Operations (COOP) Program and its ability to continue mission-essential
functions during emergency situations. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner
                                      Inspector General




                                   Audit of TSA Continuity of Operations Program
Table of Contents/Abbreviations

  Executive Summary ......................................................................................................................... 1

  Background ...................................................................................................................................... 2

  Results of Audit ............................................................................................................................... 5

       TSA COOP Plan and Program Elements................................................................................... 7

       TSA COOP Priority and Oversight.......................................................................................... 18
         Recommendations.............................................................................................................. 20
         Management Comments and OIG Analysis ...................................................................... 21

       DHS COOP Oversight ............................................................................................................. 22
         Recommendations.............................................................................................................. 24
         Management Comments and OIG Analysis ...................................................................... 24


  Appendices

       Appendix A:              Purpose, Scope, and Methodology................................................................. 26
       Appendix B:              Management Comments ................................................................................ 27
       Appendix C:              Key Sources of Guidance for Federal COOP Planning ................................. 35
       Appendix D:              Major Contributors to this Report.................................................................. 36
       Appendix E:              Report Distribution ........................................................................................ 37




                                                 Audit of TSA Continuity of Operations Program
Table of Contents/Abbreviations

  Abbreviations
    AOF           Alternate Operating Facility
    COOP          Continuity of Operations
    DHS           Department of Homeland Security
    FEMA          Federal Emergency Management Agency
    FPC           Federal Preparedness Circular
    GAO           Government Accountability Office
    HQ            Headquarters
    IT            Information Technology
    OCIO          Office of Chief Information Officer
    OIG           Office of Inspector General
    OLE           Office of Law Enforcement
    ONSC          Office of National Security Coordination
    PDD           Presidential Decision Directive
    TSA           Transportation Security Administration
    TSOC          Transportation Security Operations Center
    TT&E          Test, Training, and Exercise




                              Audit of TSA Continuity of Operations Program
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                The Transportation Security Administration’s (TSA’s) ability to continue its
                mission-essential functions during a variety of emergencies is at risk due to the
                lack of a comprehensive and effective Continuity of Operations (COOP) plan
                and program. The TSA Headquarters (HQ) COOP Plan and Program only
                partially address the 11 required elements that define a viable COOP.
                The TSA COOP plan provides only a minimal COOP capability because TSA
                management has not adequately analyzed or approved the plan to ensure that
                only essential functions and associated emergency staff are included; established
                a viable alternate work site; adequately integrated field operations into its
                planning; and taken steps to ensure that staff would have uninterrupted access to
                critical applications and data to continue essential TSA operations. Without a
                complete and viable COOP plan, TSA’s ability to support, coordinate, and direct
                intermodal transportation security during an emergency could be impaired or
                fail. In addition, DHS, through its lead component on COOP matters -- the
                Federal Emergency Management Agency (FEMA) -- has provided only limited
                oversight of TSA COOP activities and has not assessed the extent to which
                TSA, as well as other DHS components, are maintaining a COOP plan and
                program that is current and contains all required information.
                Accordingly, we are making recommendations to TSA and FEMA to take
                appropriate steps to ensure that TSA implements a comprehensive and effective
                COOP plan and program. TSA and FEMA concurred with our
                recommendations. TSA noted progress made in the COOP program since the
                end of our fieldwork. FEMA stated that the agency does not currently have the
                authority to serve as a regulatory agent responsible for ensuring that agencies
                have a viable COOP program in full compliance with Federal Preparedness
                Circular FPC 65.




                               Audit of TSA Continuity of Operations Program
                                                  Page 1
    Background
                         Continuity of Operations (COOP) 1 planning is the means by which federal
                         departments, agencies, and their subcomponents ensure that their mission-
                         essential functions continue under all circumstances. As a baseline of
                         preparedness for the full range of potential emergencies, all federal agencies are
                         required to establish a viable COOP capability, which ensures the performance
                         of their mission-essential functions during any emergency situation that may
                         disrupt normal operations.

                         While concerns about potential catastrophic attacks and other serious
                         emergencies is the catalyst for much of COOP planning, COOP activation can
                         also occur in response to routine building renovation or maintenance,
                         mechanical failure of building systems, fire, inclement weather, or other acts of
                         nature. 2 Federal COOP guidance considers the possibility that threats or attacks
                         could render federal government operations unavailable for even the slightest
                         period to be unacceptable, as essential functions must continue.

                         COOP planning was initially developed during the Cold War to preserve the
                         United States government in the event of a nuclear attack. The changing threat
                         environment and potential for emergencies with minimal or no warning, such as
                         acts of terror, accidents, technological emergency situations, and natural
                         disasters, have increased the need for COOP capabilities and plans to enable
                         agencies to continue their mission-essential functions across a broad range of
                         potential emergencies. COOP planning is a good business practice and part of
                         the fundamental mission of agencies as responsible and reliable public
                         institutions.

                         Federal Guidance on COOP

                         According to FPC 65, 3 an agency’s COOP capability must:

                              •   Be capable of implementation both with and without warning;
                              •   Be operational no later than 12 hours after activation;
                              •   Be capable of maintaining sustained operations for up to 30 days;




1
  Federal Preparedness Circular (FPC) 65, Federal Executive Branch Continuity of Operations, defines the required
elements for viable federal COOP plans.
2
  “Continuity of Operations in the Executive Branch: Background and Issues for Congress,” RL31857, Congressional
Research Service, November 8, 2004.
3
  Originally issued on July 26, 1999, FPC 65 was revised and reissued on June 15, 2004


                                         Audit of TSA Continuity of Operations Program
                                                            Page 2
                    •      Include tests, training, and exercises for personnel, equipment, systems,
                           processes, and procedures used to support the agency during a COOP
                           event;
                    •      Take maximum advantage of existing agency field infrastructures; and
                    •      Include the development, maintenance, and annual review of agency
                           COOP capabilities using a multi-year strategy and program management
                           plan.

                    As shown in Table 2, FPC 65 provides definitions and guidance for 11
                    elements that agency COOP plans and programs must contain to maintain a
                    viable COOP capability.


                                 TABLE 2: COOP Elements As Defined By FPC 65
             COOP Element                                          Description
                                        Functions that enable the federal government to provide vital services, exercise
Mission-Essential Functions             civil authority, maintain the safety and well being of the general populace, and
                                        sustain the industrial and economic base in an emergency situation.
                                        Facilities used to carry out mission-essential functions in a COOP situation if the
Alternate Operating Facilities (AOF)
                                        agency’s primary facility is unavailable.
                                        Provisions for the assumption of senior agency offices during an emergency in
Orders of Succession
                                        the event that any of those officials are unavailable to execute their legal duties.
                                        Predetermined statements that specify who is authorized to act on behalf of
Delegations of Authority
                                        agency leadership for specific purposes.
                                        Capability to transfer statutory authority and responsibility for mission-essential
                                        functions from an agency's primary operating staff and facilities to other
Devolution
                                        employees and facilities, and to sustain operational capability for an extended
                                        period.
                                        Electronic and hardcopy records needed to support mission-essential functions
Vital Records
                                        during a COOP situation.
                                        Alternate communications that provide the capability to perform essential
Interoperable Communications
                                        functions until normal operations can be resumed.
                                        Measures to ensure that an agency's COOP program can implement the COOP
Tests, Training, and Exercises
                                        plan and support mission-essential functions during an emergency situation.
                                        Process by which an agency transitions from COOP implementation to
Reconstitution
                                        resumption of normal operations.
                                        Plans and actions to respond to threats that employees are most likely to face
Human Capital                           during COOP activation, such as dismissal procedures, agency guidelines for
                                        communicating to employees, and staffing flexibilities, such as telework.
                                        Plans and procedures to be developed and documented so that agency personnel
                                        will know what to do in an emergency situation. Plans and procedures are
Plans and Procedures                    required for the three phases of COOP implementation: activation and relocation;
                                        AOF operations; and reconstitution.




                                 Audit of TSA Continuity of Operations Program
                                                    Page 3
                         According to Executive Order 12656 (EO 12656), 4 FEMA shall coordinate and
                         support the initiation, development, and implementation of national security
                         emergency preparedness programs and plans among Federal departments and
                         agencies; and provide the President a periodic assessment of Federal, State, and
                         local capabilities to respond to national security emergencies. EO 13286
                         transferred these responsibilities to the Secretary of Homeland Security. 5 In
                         March 2004, DHS Delegation Number 9001 assigned the authorities to the
                         Under Secretary for Emergency Preparedness and Response. Presidential
                         Decision Directive (PDD) 67 establishes FEMA as the lead agency for federal
                         Executive Branch COOP. The June 2004 revision of FPC 65 requires FEMA to
                         “oversee and assess the status of COOP capabilities” government-wide. A
                         detailed discussion of the authorities and guidance for federal COOP planning
                         can be found in Appendix C.

                         Transportation Security Administration

                         TSA was created in response to the terrorist attacks of September 11, 2001, as
                         part of the Aviation and Transportation Security Act signed into law by
                         President George W. Bush on November 19, 2001. TSA was established to
                         protect the nation’s transportation system – encompassing aircraft, ships, rail
                         and motor vehicles, airports, seaports, trans-shipment facilities, roads, railways,
                         bridges, and pipelines – from terrorist attacks and criminal activity. TSA,
                         originally a part of the Department of Transportation, became part of DHS in
                         March 2003.

                         Within TSA, the Office of Emergency Preparedness, and, specifically, the
                         Director of Emergency Preparedness and Continuity of Operations, 6 is
                         responsible for the development and maintenance of the TSA COOP Plan and
                         Program. The TSA COOP Program Manager and his staff are primarily
                         responsible for the daily operation and execution of the TSA COOP program,
                         with the assistance of a network of Office Emergency Coordinators located in
                         TSA program offices. According to the TSA HQ COOP Plan, these
                         coordinators are responsible for identifying office-level mission-essential
                         functions that support the agency’s overall essential functions and developing
                         individual office COOP plans. Without a complete and viable COOP plan,
                         TSA’s ability to support, coordinate and direct intermodal transportation
                         security during an emergency could be impaired or fail. TSA functions that are
                         at risk include: the ability to gather, analyze and disseminate relevant
                         transportation security and intelligence information; maintenance of the database

4
  Executive Order 12656, “Assignment of Emergency Preparedness Responsibilities,” November 11, 1988, Section 1701, as
amended.
5
  Executive Order 13286, “Amendment of Executive Orders, and Other Actions, in Connection With the Transfer of
Certain Functions to the Secretary of Homeland Security,” February 28, 2003, Section 42.
6
  Referred to as the TSA COOP Program Manager.

                                         Audit of TSA Continuity of Operations Program
                                                            Page 4
                         controlling air carriers cleared for the “no fly zone;” and operational and
                         maintenance support of screening equipment and systems in airports.



                         Prior Audits on Government COOP Programs

                         Previous government-wide audits have noted substantial weaknesses in
                         department and agency COOP plans, programs, and capabilities. In particular,
                         the Government Accountability Office (GAO) released two reports that detailed
                         weaknesses in compliance with FPC 65 requirements for COOP plans
                         government-wide. In a 2004 report, 7 GAO said that the lack of compliance with
                         FPC 65 requirements could be attributed, in part, to FEMA’s limited oversight
                         of government-wide COOP planning. GAO’s 2005 follow-up report 8 noted
                         continued lack of adequate FEMA oversight of COOP activities.


Results of Audit

        Overall Summary
                         Since the agency was created in 2001, TSA designated a COOP Program
                         Manager and staff, and developed a plan and program that has established a
                         limited COOP capability. The agency has identified mission-essential functions,
                         participated in government-wide and internal COOP exercises, and conducted
                         periodic informational meetings to identify the agency’s level of COOP
                         preparedness. Despite limited resources and the lack of dedicated funding, TSA
                         officials indicated they have maintained a level of COOP capability that would
                         sustain the performance of agency mission-essential functions. This may be
                         possible during minor disruptions, such as a power outage that occurred at TSA
                         HQ during the Spring 2005, when TSA indicated that they were able to continue
                         operations successfully during the 3-day period. However, our audit identified
                         weaknesses that place at serious risk TSA’s ability to continue operations during
                         major emergencies requiring full scale COOP activation.




7
  “Continuity of Operations: Improved Planning Needed to Ensure Delivery of Essential Services,” GAO-04-160, February
2004.
8
  “Continuity of Operations: Agency Plans Have Improved, but Better Oversight Could Assist Agencies in Preparing for
Emergencies,” GAO-05-577, April 2005.

                                         Audit of TSA Continuity of Operations Program
                                                            Page 5
TSA’s ability to continue its                    Table 1: Overall Compliance with FPC 65 for TSA HQ
mission-essential functions during a                             COOP Plan and Program
                                                COOP Element                            Addressed
range of emergencies, particularly              Mission-essential Functions                  P
under catastrophic circumstances, is            Alternate Operating Facilities               P
                                                Delegations of Authority                     P
at risk due to the lack of a                    Orders of Succession                         P
comprehensive and effective COOP                Devolution Planning                         N
                                                Vital Records                                P
plan and program. As shown in                   Interoperable Communications                 P
Table 1, the TSA Headquarters                   Test, Training, and Exercises                P
                                                Reconstitution                               P
(HQ) COOP Plan and Program do                   Human Capital                               N
not fully comply with FPC 65. The               Plans and Procedures                         P
                                                Y = Element addressed
TSA HQ COOP Plan and Program                    N = Element not addressed
only partially address the 11                   P = Element partially addressed
required elements that define a
viable COOP.

TSA has developed a cumbersome COOP plan that would require more than 200
agency personnel to conduct 138 mission-essential functions at two or more
different locations during the most extreme emergency situations. However, the
plan provides only a minimal COOP capability because: TSA management has
not adequately analyzed and approved the plan to ensure that only essential
functions and associated emergency staff are included in the plan; established a
viable alternate work site; or ensured that staff would have uninterrupted access
to critical applications and data to continue essential TSA operations. In
addition, TSA program offices have not made COOP planning a priority and
TSA management, until FY 2006, has provided only a fraction of requested
COOP funding.

Without a complete and viable COOP plan, TSA’s ability to support, coordinate,
and direct intermodal transportation security during an emergency could be
impaired or fail. TSA mission-essential functions that are at risk include: the
ability to gather, analyze, and disseminate relevant transportation security and
intelligence information; maintenance of the database controlling air carriers
cleared for the “no fly zone;” and operational and maintenance support for
screening equipment and systems in airports.




             Audit of TSA Continuity of Operations Program
                                Page 6
           TSA COOP Plan and Program Elements

                              Mission-Essential Functions

                              FPC 65 requires agencies to identify, prioritize, and validate their organization’s
                              mission-essential functions as a basis for COOP planning, and identify staffing,
                              resource requirements, and other supporting activities necessary to perform such
                              functions. Resources required to perform mission-essential functions include,
                              but are not limited to, trained personnel, equipment, and consumable office
                              supplies. The proper identification and prioritization of these functions are
                              critical for the creation of a viable continuity plan. If an agency identifies too
                              many functions as essential, scarce resources may be allocated to sustain
                              nonessential functions, impeding work on tasks that are truly essential.

                              TSA management has not adequately reviewed, analyzed, prioritized and
                              identified interdependencies or associated resources for the 138 mission-
                              essential functions that form the basis of its COOP plan. TSA officials indicated
                              that a review of mission-essential functions occurred in 2004, and found them to
                              be inconsistent and in need of revision. In addition, TSA officials stated that a
                              review of mission-essential functions was initiated in 2005, but never
                              completed. TSA officials agreed that despite these limited reviews, there were
                              some mission-essential functions in the plan that do not need to be continued
                              under all circumstances. In addition, the plan does not prioritize mission-
                              essential functions based on the criticality or time sensitivity of the functions
                              according to likely COOP triggers and scenarios. The plan also does not
                              identify interdependencies with other functions or organizations that must act in
                              concert in order to successfully perform mission-essential functions. Gaps,
                              inaccuracies and questionable or vague mission-essential functions in the TSA
                              HQ COOP Plan are the result of a lack of careful analysis by TSA.

                              Fifteen of the 41 program offices represented in the TSA HQ COOP Plan do not
                              have mission-essential functions listed in the TSA HQ COOP Plan, yet are
                              assigned space at the AOF. 9 Additionally, interviews with representatives from
                              19 of the offices confirmed that TSA has not adequately analyzed and prioritized
                              its mission-essential functions:

                                   •   7 of the 19 program offices acknowledged that not all of their mission-
                                       essential functions identified in the TSA HQ COOP Plan are, in fact,
                                       essential and must be continued under all circumstances;
                                   •   12 of the 19 program offices did not prioritize mission-essential
                                       functions; and


9
    The AOF is the facility or facilities to be used in the event that an agency’s primary facility is rendered unusable.

                                               Audit of TSA Continuity of Operations Program
                                                                  Page 7
   •   18 of 19 program offices provided the OIG mission-essential functions
       inconsistent with those listed in the TSA HQ COOP Plan.

The absence of careful management review raises questions about the validity of
the 138 mission-essential functions included in the TSA HQ COOP Plan. While
many of the mission-essential functions identified in the TSA HQ COOP Plan
were of clear importance, the TSA agreed with our observation that many of the
functions may not be mission-essential during COOP emergencies. The
following are a few examples of the many mission-essential functions identified
in the TSA HQ COOP Plan that are vague or questionable in terms of whether
they need to continue under all circumstances during a COOP emergency:

   •   Facilitating paperwork for leadership,
   •   Answering and investigating routine complaints,
   •   Tracking training activities, and
   •   Collecting customer, partner, and stakeholder feedback.

As a consequence of not properly identifying, prioritizing, and validating
mission-essential functions, there may be mission-essential functions that are
overlooked and not included in the TSA HQ COOP Plan. Conversely, the TSA
HQ COOP Plan may contain nonessential functions, causing the plan to be
cumbersome, costly, difficult to manage, and more likely to fail during an
emergency situation.

Furthermore, TSA or its program offices have not identified and documented the
resources necessary to continue mission-essential functions under all
circumstances, such as mission critical data, equipment, information technology
and telecommunications hardware, and office supplies. The TSA HQ COOP
Plan does not identify resource requirements for the 138 mission-essential
functions listed in the plan. Additionally, 15 of the 19 program offices we
interviewed did not maintain complete documentation detailing key emergency
personnel, emergency tasks, and operating procedures to support the office’s
mission-essential functions as required by FPC 65. Without adequate
documentation maintained at the TSA program office level to support mission-
essential functions, the execution of those functions could be entirely dependent
on the availability, knowledge, and personal experience of designated
emergency personnel during an emergency situation.

Alternate Operating Facilities

FPC 65 and FEMA guidance require agencies’ COOP plans to identify and
prepare Alternate Operating Facilities (AOFs) with the capability to perform
their mission-essential functions within 12 hours of COOP activation and to
sustain these functions up to 30 days. As such, AOFs must be located far

             Audit of TSA Continuity of Operations Program
                                Page 8
enough from vulnerable areas and provide support, infrastructure systems, and
security for the relocated employees.

Since joining DHS in 2003, TSA has secured a number of interim AOFs to
continue operations; however, the agency has never had permanent AOF
capabilities to support the TSA HQ COOP Plan. From March 2003 through
November 2004, TSA collocated the AOF with another TSA installation, which
was inadequately sized to accommodate the COOP plan. The facility was
designated for other purposes and TSA leased and occupied another facility,
despite unsuitable physical security, as a temporary measure until a suitable and
permanent facility was identified, approved and modified to TSA needs. TSA
terminated the lease and collocated the current AOF with another TSA
installation in December 2005, and told the audit team in January 2006 that the
facility would be modified and ready for COOP activities by May 2006. As of
March 2006, the AOF was not configured for purposes of TSA COOP activities
because plans to rearrange the space to accommodate both COOP and current
TSA occupant needs were still being developed. TSA advised that the AOF was
at least nine months behind schedule.

The number of staff and leadership requesting a presence at the AOF, and lack
of resources to procure a larger facility prohibited TSA from obtaining one
location that could accommodate the entire staff. Consequently, TSA staff and
leadership would report to different AOFs during some emergency situations.
Our review concentrated on the emergency staff AOF since senior TSA
leadership has been designated to report to a location operated by another
government agency.

The current AOF does not meet FPC 65 requirements and does not provide
sufficient space and equipment to sustain TSA COOP activities under all
circumstances. Specifically, we learned:

   •   At the time of our site visit in January 2006, the AOF size and
       configuration could only accommodate 16% (30 of the 184) of the
       emergency personnel identified in the HQ COOP Plan.
   •   The AOF may not be sufficiently distant from vulnerable areas.
   •   The site does not have reliable and adequate backup power to host
       COOP activation. Although we were told that the site had a generator
       and an uninterrupted power supply, the systems were not connected.
   •   The building has only minimal physical security.

TSA is configuring the new AOF, and planning for associated resources and
equipment, despite the fact that the agency has yet to validate its mission-
essential functions. At the time of our audit, TSA was planning for an AOF to
accommodate 41 program offices and 184 emergency staff to conduct 138

             Audit of TSA Continuity of Operations Program
                                Page 9
separate mission-essential functions. Without a careful analysis of its mission-
essential functions, TSA cannot effectively or accurately plan for the size, cost
and associated resources for its AOF.

Delegations of Authority and Orders of Succession

Under FPC 65, agencies are to pre-delegate authorities for making policy
determinations and other decisions to ensure rapid response to any emergency
situation requiring COOP plan activation. Agencies must establish, implement,
and maintain orders of succession to key positions to ensure an orderly, pre-
defined transition of leadership in the event leadership is debilitated or incapable
of performing their legally authorized duties, roles, and responsibilities.
Agencies must ensure that officials who may be expected to assume authorities
in a COOP situation or be designated successors are trained and briefed annually
on their potential responsibilities.

The TSA HQ COOP Plan and the program office COOP plans do not have
delegations of authority and orders of succession compliant with FPC 65
requirements. The TSA HQ COOP Plan contained delegations of authority and
orders of successions that were out of date for more than one year and still did
not reflect changes in senior TSA leadership and the TSA organizational
structure that occurred throughout 2005. For example, both the orders of
succession and delegations of authority refer to the Assistant Administrators for
Maritime and Land Security and Aviation Operations; however, these positions
no longer exist in the current TSA organization.

Delegations of authority and orders of succession were missing or inaccurate for
15 of the 19 TSA program offices we reviewed. In addition, TSA officials
acknowledged that the agency has not consistently trained or briefed officials
that could be delegated authorities under emergency situations or be designated
successors, and had not conducted briefings since October 2004, despite the fact
that TSA leadership changed throughout 2005. Without clear and current
delegations of authority and orders of succession, TSA’s ability to manage and
direct its mission-essential functions and operations during an emergency
situation is at risk.

Devolution Planning

TSA has not identified a devolution site or developed a devolution plan to
ensure continuation of the agency’s mission-essential functions if TSA HQ or its
AOFs were rendered unavailable. Devolution planning refers to preparation
necessary to transfer mission-essential functions of a department or agency to
another organizational element, such as a field office, should an organization’s
AOF or emergency relocation personnel be rendered unavailable or

              Audit of TSA Continuity of Operations Program
                                 Page 10
incapacitated. FPC 65 requires that agencies conduct devolution planning to
identify how the agency will continue its mission-essential functions during
increased threat situations or in the aftermath of a catastrophic emergency
situation. Although TSA has an existing field structure in place at 5 Mission
Support Centers and over 400 airports located across the United States, TSA has
not performed required devolution planning. Without a devolution site or plan,
there is no assurance that TSA would be able to continue operations if an
emergency situation rendered TSA’s HQ or the AOFs unavailable or
incapacitated.

Vital Records Program

FPC 65 requires agencies to identify, protect, and make readily available vital
records and databases to support mission-essential functions during COOP
emergencies. The protection and availability of electronic and hardcopy
documents, references, records, and information systems are needed to support
mission-essential functions under a variety of emergency situations. To the
extent possible, agencies should pre-position and regularly update duplicate
records or backup electronic files. There are two types of vital records:

   •   Emergency Operating Records: Emergency plans and directives; orders
       of succession; delegations of authority; staffing assignments; and related
       records of a policy or procedural nature that provide agency staff with
       guidance and information resources necessary for conducting operations
       during an emergency situation, and for resuming formal operations at its
       conclusion.

   •   Legal and Financial Records: Records that are critical to carrying out an
       organization’s essential legal and financial functions and activities, and
       protect the legal and financial rights of individuals directly affected by
       its activities.

By issuing Management Directive 200.9, Vital Records Program, TSA
established policy and procedures for the identification, preparation, and
inventory of vital records to ensure that needed records are available during
COOP emergencies. However, the directive was not issued until August 29,
2005. Under this directive, TSA program offices are charged with identifying,
safeguarding, and updating office vital records; and ensuring that these records
are easily retrievable to support the continuity of their mission-essential
functions during COOP emergencies.

The TSA HQ COOP Plan does not address an agency-wide vital records
program to support COOP operations, although officials indicated that specific
instructions for the storage of electronic and paper emergency operating records

              Audit of TSA Continuity of Operations Program
                                 Page 11
                          were issued separately. Despite this, TSA officials were unaware of the extent
                          to which TSA program offices have complied with TSA policy for its vital
                          records program. Interviews with Office Emergency Coordinators from 19
                          TSA organizational elements indicated that none of the offices established a
                          formal vital records program in accordance with FPC 65 and TSA Management
                          Directive 200.9. These Emergency Coordinators do not maintain complete
                          documentation for their emergency operating vital records and procedures for
                          implementing, safeguarding and updating the records.

                          Interoperable Communications

                          Under FPC 65, agencies are required to establish interoperable communications
                          that provide the capability to perform mission-essential functions until normal
                          operations can be resumed. Specifically, agencies are required to ensure the
                          availability of redundant and interoperable communication systems that support
                          the ability to communicate with employees, agency leadership, and other
                          elements and locations during an emergency situation. Also, agencies must
                          ensure the backup of critical applications are available to provide access to data,
                          systems, and services necessary to support mission-essential functions.

                          The Office of Management and Budget Circular A-130, Management of Federal
                          Information Resources and the National Institute of Standards and Technology
                          Special Publication 800-34, Contingency Planning Guide for Information
                          Technology Systems, discuss the need for disaster recovery plans in the event an
                          emergency situation leads to information technology (IT) system failure. The
                          TSA COOP Program Manager explained that COOP IT readiness is his
                          responsibility with support from the TSA Office of Chief Information Officer
                          (OCIO).

                          TSA has only partially established interoperable and redundant communications
                          and systems available to support communication with employees, agency
                          leadership, and other elements and locations during an emergency. TSA
                          officials advised that TSA provides multiple modes of communication at its
                          AOFs including:

                              •   Dedicated TSA data connectivity to all critical applications housed at the
                                  TSA hosting center; 10
                              •   Dedicated land-line voice communication based at different locations on
                                  the Public Switched Telephone Network (PSTN); 11 and

10
   This facility is located outside the Washington, D.C. area.
11
   The PSTN (public switched telephone network) is the world's collection of interconnected voice-oriented public
telephone networks, both commercial and government-owned. The PSTN also furnishes much of the Internet's long-
distance infrastructure.

                                          Audit of TSA Continuity of Operations Program
                                                             Page 12
                                •   Commercial systems such as the Internet, cellular telephones, and
                                    dedicated voice lines to communicate with its non-emergency workforce.

                           Although emergency planning assumes that the PSTN will be available during
                           an emergency, TSA officials agreed that even though the system has improved
                           since 9/11, the PSTN is vulnerable to penetration or disruption. In addition,
                           TSA officials also acknowledged that dedicated data connectivity to critical
                           systems and applications is also vulnerable as these systems represent “single
                           points of failure.” TSA does not have adequate backup of critical applications
                           needed to provide access to data, systems, and services necessary to support
                           mission-essential functions. Specifically, the OCIO does not have a fully
                           functional backup facility to restore critical applications.

                           In addition, the OCIO has not prioritized its list of mission critical
                           applications; 12 thus, TSA has not identified which of its critical systems would
                           be restored or the restoration order. If a disaster rendered the data centers
                           inoperable, TSA would use its IT contractor facility in suburban Virginia to
                           provide a limited backup capability to recover systems. The OCIO may not be
                           able to fully recover from a disaster because the contractor facility likely cannot
                           replicate the off-site center, and therefore, may not be able to restore all critical
                           systems. OCIO staff acknowledged it could take more than a week to obtain
                           this limited capability and that TSA has not tested this facility for
                           responsiveness in emergency situations.

                           TSA does not have formalized disaster recovery plans for its IT systems. TSA
                           recently awarded a bridge contract to develop disaster recovery plans for OCIO
                           systems. However, this bridge contract does not include reviewing the
                           requirements of those IT systems not under the control of the OCIO.
                           Additionally, TSA has not approved the estimated $40 million needed to
                           implement a disaster recovery capability. The lack of disaster recovery plans
                           was mentioned in TSA’s 2004 after-action report on its participation in the
                           government-wide COOP exercise Forward Challenge. Specifically:

                                    “…the lack of disaster recovery plans for TSA headquarters IT systems,
                                    the Transportation Security Operations Center (TSOC) IT systems...and
                                    the Transportation Security Intelligence Service intelligence systems are
                                    major vulnerabilities…and represent single points of failure for TSA…If
                                    the TSOC is not able to communicate with the…hosting center for any
                                    reason, it is effectively isolated.”



12
  The OCIO provided a list of 18 mission critical systems that are housed at either an off-site data center or an on-site data
center. Some examples of the mission critical systems are the Alert Notification System, Law Enforcement Messaging
Switch, and TSANet.

                                            Audit of TSA Continuity of Operations Program
                                                               Page 13
                         TSA officials agreed that COOP planning has not been a TSA priority, as
                         evidenced by the lack of adequate funding for redundant and interoperable
                         communications systems, backup of critical applications, and disaster recovery
                         plans. They said that funding for these items has been repeatedly requested but
                         not approved, because funding has generally been directed towards other, more
                         current problems such as connectivity issues, not disaster recovery capabilities.
                         Without redundant and interoperable communications systems, backup of
                         critical applications, and disaster recovery plans, there may be a loss of access to
                         many critical applications, and TSA may not be able to continue its mission-
                         essential functions.

                         Test, Training, and Exercise Program

                         FPC 65 requires that agencies assess, demonstrate, and improve the ability to
                         execute COOP plans and programs through a testing, training, and exercise
                         (TT&E) program. Agencies must plan, conduct, and document periodic tests,
                         training, and exercises to demonstrate COOP plan viability, identify
                         deficiencies, and ensure personnel are able to implement COOP plans to carry
                         out mission-essential functions. The circular also instructs agencies to develop a
                         multi-year plan that addresses TT&E requirements and resources to support
                         these activities.

                         While TSA participated in several internal and government-wide COOP
                         exercises, the TSA has not fully developed a test, training and exercise program
                         to validate, or identify for subsequent correction, specific aspects of COOP
                         capabilities, procedures, systems and facilities used in response to emergency
                         situations.

                              •   TSA officials indicated that tests of COOP procedures and systems have
                                  occurred during nationwide COOP exercises and associated with events
                                  such as the 2005 Presidential Inauguration and the 2006 State of the
                                  Union Address. However, officials also acknowledged that the system
                                  has not been tested at least quarterly, as required by FPC 65. The TSA
                                  COOP Program Manager explained that TSA planned to use an
                                  automated alert and notification system, 13 but the contact information in
                                  the system is extremely outdated, thereby reducing the utility of the tests.

                              •   TSA has not implemented action plans to correct deficiencies identified
                                  during previous COOP exercises and updated the TSA HQ COOP Plan.
                                  While program office personnel reported numerous problems
                                  experienced during a June 2005 COOP exercise, such as inability to
13
  The alert and notification system automatically calls and e-mails TSA senior management and emergency coordinators
during an emergency. A recorded message would provide details on the COOP situation including whether to deploy to the
AOF.

                                         Audit of TSA Continuity of Operations Program
                                                            Page 14
       access important files, inability to access e-mail, limited external
       communications, and lack of office equipment and computer hardware,
       TSA has not developed or implemented plans to correct those
       deficiencies. TSA officials advised that, despite the lack of a written
       corrective action plan, many COOP deficiencies noted during COOP
       exercises in 2004 and 2005 have been addressed by the agency.

   •   TSA has not ensured that agency personnel are trained to implement
       COOP plans and carry out mission-essential functions in a COOP
       situation. Sixteen of the 19 Office Emergency Coordinators we
       interviewed said that they did not receive formal COOP training for their
       position, despite the fact that FEMA provides numerous no-cost COOP
       training opportunities both in a classroom setting and on-line.
       Additionally, TSA does not have adequate assurance that COOP
       awareness training, orientation or briefings are provided to its entire
       workforce, as required by FPC 65. The TSA officials said that COOP
       training was left up to each program office because the TSA COOP staff
       does not have the resources to train personnel. TSA officials indicated
       that the agency has established a TSA-intranet website on emergency
       preparedness available to all employees, as well as a COOP information
       pamphlet provided to all OECs for distribution to the workforce.
       However, TSA officials also indicated they do not know whether COOP
       training or orientations are actually being provided, or to what extent
       employees have accessed the intranet site or received the COOP
       pamphlet.

   •   TSA has not prepared a multi-year TT&E plan that addresses COOP
       TT&E requirements, resources to support TT&E activities, and a TT&E
       planning calendar.

An effective TT&E program is important to improve the ability of agencies to
effectively manage and execute their COOP program. Without an effective
TT&E program in place, TSA has no assurance that its COOP program is
capable of supporting the continued execution of the agency’s mission-essential
functions during a COOP situation.

Reconstitution

FPC 65 requires agencies to provide an executable reconstitution plan to
transition from COOP status to an efficient normal operations status once the
threat or disruption has passed. Agencies must coordinate and pre-plan options
for reconstitution from all levels of disruption and outline procedures for a
smooth transition from a relocation site to the new or restored HQ facility. As
reconstitution is implemented, agencies must inform and instruct all personnel


             Audit of TSA Continuity of Operations Program
                                Page 15
for resumption of normal operations and supervise the orderly return to the
primary location. Agencies are required to verify that all systems,
communications, and other required capabilities are available and operational
and the agency is fully capable of accomplishing all mission-essential functions
at the new facility. The agency must conduct an after-action review to identify
areas for correction and develop a remedial action plan.

The TSA HQ COOP Plan does not provide options for reconstitution from all
levels of disruptions and the movement from the COOP AOF or devolution site
to the original facility or new operating site. Instead, the plan identifies limited
actions that the Facilities Recovery Team would take that would result in
recommendations for recovery and reconstitution strategy. The plan mentions
that a separate Reconstitution Team will be established when TSA facilities
have sustained severe damage or TSA staff has suffered substantial casualties.
The TSA COOP Program Manager explained that during a national security
emergency, TSA would rely on direction from the White House for all other
reconstitution planning. We understand that a catastrophe of significant
magnitude would require special guidance and attention; however, TSA has not
provided emergency personnel with sufficient information to ensure a smooth
transition from a COOP situation to resume normal operations. Based on the
limited information in the TSA HQ COOP Plan, reconstitution may pose
significant challenges during a COOP event and delay the return to normal
operations.

Human Capital

The TSA HQ COOP Plan does not include the required procedures and guidance
on human resource issues related to continued operations. FPC 65 requires each
agency to design, update, and carry out comprehensive plans to respond to the
threats that its employees are most likely to face during an emergency situation.
Agencies should be familiar with the many human capital resources and
flexibilities that exist to assist managers and employees in an emergency
situation. Agencies need to address human capital topics in their COOP plans
such as:

   •   Dismissal and closing procedures;
   •   Plans and methods for communicating with employees;
   •   Pay and staffing flexibilities;
   •   Employee recall procedures; and
   •   Employee roles and responsibilities.

FPC 65 also requires that agencies ensure COOP capabilities take maximum
advantage of existing agency field infrastructures and give consideration to other
options, such as telecommuting locations, work-at-home, virtual offices, and

              Audit of TSA Continuity of Operations Program
                                 Page 16
                             joint or shared facilities. DHS Management Directive 3070.2, Telework
                             Directive, 14 states that telework can be used as an integral part of DHS COOP
                             plans to ensure that DHS operates smoothly in times of emergency situations,
                             disasters, or inclement weather. According to the Office of Personnel
                             Management, telework is “an invaluable management tool which not only
                             allows employees greater flexibility to balance their personal and professional
                             duties, but also allows both management and employees to cope with the
                             uncertainties of potential disruptions in the workplace, including terrorist
                             threats.” GAO and the Congress have also indicated that the ability to telework
                             has been, and will continue to be, very important in times of emergency
                             situations.

                             The TSA HQ COOP Plan does not include the human factors that need to be
                             considered during a crisis, such as expected roles and responsibilities, staffing,
                             pay, and notification protocols. Instead, the plan indicates that detailed
                             administrative and personnel services support procedures for deployed TSA
                             staff during an emergency situation will be provided at an unspecified “later
                             date.”

                             Similarly, TSA has not addressed telework as an emergency strategy in its
                             COOP plan and program. TSA advised that the agency did not have a telework
                             policy in place prior to February 2006. In addition, TSA indicated that the
                             agency conducted a pilot project for using telework as a COOP strategy, but
                             found that the IT infrastructure needed to support telework under COOP
                             conditions was inadequate and, therefore, cancelled the project.

                             Without human capital information in its COOP plan and program, TSA staff
                             may not receive the information necessary to know what to do under many
                             emergency situations. Additionally, without implementing a telework program
                             to support its COOP program, TSA is missing an opportunity to extend the
                             survivability of its mission-essential operations if TSA HQ and AOF locations
                             are rendered inoperable or inaccessible during a catastrophic event.

                             Plans and Procedures

                             As previously discussed, FPC 65 requires that agencies develop a
                             comprehensive COOP plan to ensure the continued performance of an
                             organization’s mission-essential functions under all circumstances and include
                             elements that define a viable COOP. In addition, agencies are required to
                             develop plans and procedures for three phases of COOP implementation:
                             activation and relocation; AOF operations; and reconstitution. The TSA HQ
                             COOP Plan includes:

14
     Dated August 17, 2005

                                           Audit of TSA Continuity of Operations Program
                                                              Page 17
                              •    Plans for activation, such as check-in procedures for emergency
                                   personnel;
                              •    Plans for fly-away kits 15 for emergency personnel; and
                              •    Alert and notification procedures.

                          However, the TSA HQ COOP Plan, as described in the previous sections, is not
                          comprehensive and does not adequately address all 11 elements of a viable
                          COOP. The COOP plan has not been reviewed annually or approved by senior
                          TSA officials, as required by FPC 65.


        TSA COOP Priority and Oversight
                          According to FPC 65, each federal executive branch agency is responsible for
                          appointing a senior federal government executive to serve as program manager
                          and agency point of contact for agency COOP activities, and to ensure that there
                          is adequate planning, programming, and budgeting for a viable and executable
                          COOP program that adheres to FPC 65. The TSA HQ COOP Plan designates
                          the TSA COOP Program Manager responsible for the coordination,
                          development, execution, and maintenance of the COOP plan and program.

                          Additionally, FPC 65 requires that each agency’s COOP plan must include the
                          development, maintenance, and annual review of the COOP capabilities using a
                          multi-year strategy and program management plan. The multi-year strategy and
                          program management plan should outline the process an agency will follow to
                          designate and review mission-essential functions and resources; define short and
                          long-term COOP goals and objectives; forecast COOP budgetary requirements;
                          and identify COOP program issues, concerns, potential obstacles, and the
                          strategy for addressing these obstacles.

                          COOP planning has not been a priority for TSA nor have adequate resources
                          been available for COOP planning. Both have contributed to the numerous
                          deficiencies discussed in this report. TSA officials stated that the main reason
                          for COOP deficiencies was the lack of funding and personnel resources
                          provided to the program. As we were concluding our audit fieldwork in
                          February 2006, approximately $4.2 million was reprogrammed to the TSA
                          COOP program, primarily to cover costs associated with modifying and
                          outfitting the agency’s AOFs used to support COOP activation. However, from

15
  Fly-away kits are kits prepared by, and for, an individual who expects to deploy to an alternate location during an
emergency. They contain work-related and personal items needed to minimally satisfy personal and professional needs
during deployment.


                                          Audit of TSA Continuity of Operations Program
                                                             Page 18
                           FY 2003 through FY 2005, TSA had provided only $830,000 total in reallocated
                           funds, 16 although TSA COOP management requested $6 million to $8.75
                           million annually for the COOP program. Funds were requested for additional
                           staff, telecommunications and IT equipment, emergency office supplies, and
                           AOF renovation. In addition, OCIO officials said that approximately $40
                           million was requested to address deficiencies in information technology disaster
                           recovery planning and has not been approved by TSA.

                           As stated in a TSA draft acquisition plan prepared in 2005, “… the (TSA
                           COOP) program remains unfunded, and, therefore, has been slow to progress
                           beyond the initial stage. Through the reprogramming of operational funds, a
                           minimum level of capability has been achieved, but is not sustainable. …[and
                           consequently] TSA would be out of compliance with White House and DHS
                           directives concerning COOP requirements. TSA would be vulnerable to
                           disruption of its missions-essential functions.”

                           Additionally, the TSA COOP Program Manager explained he also had many
                           staffing challenges since assuming this role in July 2002. The COOP Program
                           Manager worked on the program by himself for over a year, and during that
                           time, he indicated that only 30 to 50 percent of his time was allocated to the
                           TSA COOP program because he was assigned to other duties. Furthermore, the
                           COOP Program Manager said that TSA was unable to maintain a trained COOP
                           staff until September 2004. Since then, the COOP Program Manager has
                           maintained a staff of four trained employees with assistance from between one
                           and four additional staff members over time.

                           We concluded that TSA has not provided effective oversight of the TSA COOP
                           Program. As previously discussed, TSA has not adequately reviewed and
                           confirmed the program office mission-essential functions, reviewed office-level
                           COOP plans, or prepared a multi-year strategy and program management plan to
                           guide the COOP program. Additionally, major sections of the TSA HQ COOP
                           Plan are incomplete or missing and/or not in compliance with FPC 65
                           requirements. The HQ COOP Plan has not been updated to reflect
                           organizational and mission-essential function changes and lists incorrect contact
                           information for 5 of the 19 offices we interviewed. In addition, TSA has not
                           adequately integrated its field operations into its COOP program. For example:

                                •   TSA has collected COOP plans from only 85 of the 449 federalized
                                    airports, including only 9 of the 27 category X airports. 17 None of the 85

16
   The following funds were reprogrammed to the COOP program from FY 2003 through FY 2005: FY 2003-$230,000;
FY 2004-$350,000; and FY 2005-$250,000.
17
   TSA classifies commercial airports in the United States into one of five security risk categories (X, I, II, III, and IV)
based on various factors, such as the total number of takeoffs and landings annually, and other security considerations. In
general, category X airports have the largest number of passenger boarding and category IV have the smallest.

                                            Audit of TSA Continuity of Operations Program
                                                               Page 19
                   plans collected have been reviewed by TSA COOP staff to ensure that
                   the plans are compliant with FPC 65 requirements, consistent, or address
                   agency emergency planning needs.
             •     TSA could not identify the correct COOP contact information for the
                   four airports reviewed and contacted for this audit.
             •     TSA has not determined how the five Mission Support Centers would fit
                   into COOP planning, and as such, the entities are not incorporated in the
                   TSA HQ COOP Plan.

     Recommendations
          We recommend that the Assistant Secretary of the TSA take appropriate steps
          to:

                 1. Ensure that the TSA Office of Emergency Preparedness provides
                    sufficient direction and oversight that will enable the agency to develop
                    and maintain a comprehensive and effective COOP plan and program,
                    compliant with all FPC 65 requirements;

                 2. Ensure that TSA program offices fulfill their assigned responsibilities
                    under the TSA HQ COOP plan and provide the support necessary for
                    TSA to implement a viable COOP plan and program.

                 3. Provide the resources necessary to implement a viable COOP program,
                    in order to continue operations under any emergency situation.


Management Comments and OIG Analysis:

          Management Comments to Recommendation #1

          TSA concurred with our recommendation and stated that making COOP
          planning a priority for its leadership is central to a viable COOP capability.
          TSA noted that the Assistant Secretary’s personal interest in the COOP program
          demonstrates the highest level of oversight. TSA indicated that the COOP
          program is now being managed by the Office of Law Enforcement (OLE),
          Emergency Preparedness Division, and that their leadership is reaching out
          across TSA management to build COOP awareness and support. With this
          reorganization, TSA believes that it has improved the accountability, oversight
          and visibility of the COOP program. TSA also provided examples of how the
          agency has made significant progress in addressing the deficiencies in the
          required elements of a viable COOP since the end of our fieldwork. TSA also



                         Audit of TSA Continuity of Operations Program
                                            Page 20
intends to use the eleven program elements as a benchmark to measure progress
and evaluate COOP capacity and performance.

Management Comments to Recommendation #2

TSA concurred with our recommendation. In response to our draft report, TSA
stated that the agency recently completed an internal reorganization and
reassignments of responsibility aligning senior management officials for each
program office. TSA indicated that new Office Emergency Coordinators have
been assigned and COOP program management is developing a comprehensive
strategy for ensuring office compliance and readiness. This strategy will include
self-audits, unannounced audits by COOP program officers, readiness
checklists, and ongoing awareness initiatives. Finally, OLE management will
engage with program office senior management officials to ensure that office-
level and field planning efforts are complete, accurate and viable.

Management Comments to Recommendation #3

TSA concurred with our recommendation. The agency, in its response to the
draft report, stated that $10 million in FY 2006 funds were allocated to the
COOP program to support the design and build-out of two AOFs and procure
emergency equipment. TSA also indicated that funding will also be used to
obtain contractor support for developing COOP documentation.

OIG Comments and Analysis

We consider Recommendations #1, #2, and #3 resolved but will remain open
until implementation is complete. We agree that TSA has been responsive to
our draft report and has taken significant steps to building a strong, viable
COOP capability. TSA provided additional resources and reorganized the
COOP management structure to raise the visibility and priority of the program.
TSA noted that the agency recently reexamined its mission-essential functions
and a task force would be formed to identify a strategy to analyze, validate and
prioritize the results. TSA is also in the process of developing a five-year TT&E
plan. However, TSA still needs to make progress in addressing other
deficiencies in its COOP plan and program that we identified during our audit,
many of which were not specifically addressed in TSA’s response, such as the
integration of its field structure into COOP planning, out of date orders of
succession and delegations of authority, inadequate interoperable
communications, lack of a reconstitution plan and the lack of compliance by
TSA offices with vital records program requirements. Although TSA has made
additional resources available to the COOP program, TSA did not specifically
state its plans to provide adequate resources to address deficiencies in disaster
recovery capabilities for the agency’s IT systems.

             Audit of TSA Continuity of Operations Program
                                Page 21
                          We will consider the recommendations closed when TSA reports back to us on
                          the completion of its planned actions to address all deficiencies identified in this
                          report.

                          A copy of TSA’s entire response is included as Appendix B.



                 DHS COOP Oversight
                          DHS has provided only limited oversight of TSA COOP activities. Specifically,
                          DHS has not assessed the extent to which TSA, as well as other DHS
                          components, are maintaining a COOP plan and program that is current, contains
                          all required information as outlined in FPC 65, and ensures the continuation of
                          TSA mission-essential functions under a variety of emergencies. While FEMA
                          acknowledges that it is the “lead agent” for COOP activities across the federal
                          executive branch, and has primary responsibility within DHS for the
                          development and execution of the Department’s COOP program, the agency
                          does not believe that it has been formally assigned the authority, nor does it have
                          the resources to assess DHS component COOP programs, plans, and
                          capabilities.

                          FEMA was established as the “lead agent” for federal executive branch COOP
                          under Presidential Decision Directive 67 (PDD 67). 18 This effort is led by
                          FEMA’s Office of National Security Coordination (ONSC). Under PDD 67,
                          FEMA is designated as the chair of an Interagency Advisory Group charged
                          with providing coordination, oversight, and management for COOP activities.

                          According to Executive Order 12656 (EO 12656), 19 FEMA shall coordinate and
                          support the initiation, development, and implementation of national security
                          emergency preparedness programs and plans among Federal departments and
                          agencies; and provide the President a periodic assessment of Federal, State, and
                          local capabilities to respond to national security emergencies. EO 13286
                          transferred these responsibilities to the Secretary of Homeland Security. 20 In
                          March 2004, DHS Delegation Number 9001 assigned the authorities to the
                          Under Secretary for Emergency Preparedness and Response. The June 2004
18
   PDD 67, “Enduring Constitutional Government and Continuity of Government Operations,” October 21, 1998. FEMA
provided the OIG team only with unclassified excerpts of the document relevant to federal agency COOP responsibilities
and FEMA’s role government-wide. PDD 67 is a national security classified document under the control of the National
Security Council.
19
   Executive Order 12656, “Assignment of Emergency Preparedness Responsibilities,” November 11, 1988, Section 1701,
as amended.
20
   Executive Order 13286, “Amendment of Executive Orders, and Other Actions, in Connection With the Transfer of
Certain Functions to the Secretary of Homeland Security,” February 28, 2003, Section 42.

                                          Audit of TSA Continuity of Operations Program
                                                             Page 22
                         revision of FPC 65 requires FEMA to “oversee and assess the status of COOP
                         capabilities” government-wide.

                         ONSC also serves as DHS’ lead agent for COOP activities with the Department.
                         Under authority established by DHS Management Directive 9300.1, 21 a DHS
                         COOP Working Group was formed “to provide oversight and direction to the
                         DHS COOP program.” FEMA co-chairs this working group with the Office of
                         the Chief of Staff. We noted that this Directive does not reflect the recent
                         reorganization of DHS. When the Directive was issued in 2004, FEMA reported
                         to the Under Secretary for Emergency Preparedness and Response, which was
                         given overall responsibility for the development and execution of the DHS-wide
                         COOP program. According to FEMA officials, this responsibility was delegated
                         to FEMA’s ONSC. As a result of a recent reorganization, FEMA now reports
                         directly to the DHS Deputy Secretary. Nevertheless, FEMA indicated that DHS
                         COOP responsibilities currently remain with ONSC and that they would be
                         proposing changes to the now out-of-date Directive.

                         GAO also attributes a significant COOP oversight responsibility to FEMA. In
                         consecutive reports issued in 2004 and 2005, GAO reported that the lack of
                         compliance with FPC 65 requirements by federal executive branch departments
                         and agencies could be attributed, in part, to FEMA’s limited oversight of COOP
                         planning government-wide. 22 GAO noted that FEMA had not conducted
                         oversight that is “sufficiently regular and extensive to ensure that agencies
                         correct deficiencies” in COOP plans and programs. GAO noted that improved
                         FEMA oversight of COOP activities could be instrumental in ensuring that
                         agencies prepare adequate COOP plans.

                         ONSC, however, does not believe that guidance provides them with the
                         authority and responsibility to ensure that agencies, both within DHS and
                         government-wide, are maintaining viable COOP plans, programs and
                         capabilities. ONSC officials contend that their role is limited to providing
                         coordination, guidance, advice, and support, but that they do not have the
                         regulatory authority to conduct in-depth assessments of individual agency
                         COOPs, nor the authority to direct agencies to establish and maintain a viable
                         COOP capability.

                         Within DHS, FEMA officials pointed out that oversight responsibilities for
                         COOP activities are vested in the DHS COOP Working Group, which they co-
                         chair. However, they agreed that the Working Group has not, nor does it intend

21
   DHS Management Directive 9300.1, “Continuity of Operations Programs and Continuity of Government Functions,”
July 12, 2004.
22
   “Continuity of Operations: Improved Planning Needed to Ensure Delivery of Essential Services,” GAO-04-160,
February 2004. “Continuity of Operations: Agency Plans Have Improved, But Better Oversight Could Assist Agencies in
Preparing for Emergencies,” GAO-05-577, April 2005.

                                        Audit of TSA Continuity of Operations Program
                                                           Page 23
                         to, conduct in-depth assessments of DHS component COOP plans and programs.
                         FEMA officials further stated that ONSC may be the most appropriate office to
                         provide additional oversight and to conduct assessments of COOP plans and
                         programs. However, FEMA contends that currently they do not have the
                         authority or resources to fulfill such a role.

                         While FEMA officials agreed with us that DHS COOP oversight was inadequate
                         and required improvements, the agency believes that limited oversight is
                         provided through annual FEMA-coordinated government-wide COOP exercises,
                         such as Forward Challenge 2004 and Pinnacle 2005. FEMA stated that they
                         assumed that agencies, including TSA, have viable COOP capabilities due to
                         their successful participation in these government-wide COOP exercises.
                         Additionally, FEMA is working on a COOP reporting and oversight tool, the
                         Readiness Reporting System, 23 which will require departments and agencies
                         government-wide to answer a series of questions to determine and report their
                         readiness posture. However, FEMA acknowledged that it has not yet addressed
                         GAO concerns on how the agency plans to validate agencies’ self-reported
                         information on COOP capabilities.

                 Recommendations
                          We recommend the Under Secretary for Federal Emergency Management
                          ensure that DHS Management Directive 9300.1 is revised to reflect the current
                          DHS organization. The Directive should clearly assign and delineate COOP
                          oversight responsibilities and authority to ensure that all DHS components have
                          a viable COOP program in full compliance with FPC 65 that is capable of
                          ensuring continuation of all essential functions under all COOP situations.


        Management Comments and OIG Analysis:

                         Management Comments to Recommendation

                         FEMA generally agreed with the overall finding that DHS has provided only
                         limited oversight of TSA COOP activities, and concurred with our
                         recommendation to revise MD 9300.1 to clearly assign and delineate COOP
                         oversight responsibilities and authority to ensure that all DHS components have
                         a viable COOP program in full compliance with FPC 65. The agency stated that
                         they believe that revisions to MD 9300.1 need to include some form of
                         accountability which FEMA can enforce, and where agencies can ensure their
                         national security commitments. While FEMA generally agreed that they
23
  The Readiness Reporting System was initially scheduled to be operational by October 2005; however, FEMA officials
advised that the system would now be ready by October 2006.

                                         Audit of TSA Continuity of Operations Program
                                                            Page 24
provide only limited oversight of TSA (and other agency) COOP activities, the
agency stated that they do not have the authority to serve as a regulatory agent
responsible for ensuring that departments and agencies are prepared for COOP.
FEMA contends they have provided significant oversight to many agencies
including the TSA, by collecting agency COOP readiness status reports.
Through their co-chairing of the DHS COOP Working Group, the agency
promotes the development, coordination, and integration of COOP planning and
programs throughout DHS. FEMA also stated that the agency has provided
extensive and comprehensive COOP training to various departments and
agencies during the past two years on revisions to FPC 65.

OIG Comments and Analysis

Our draft report noted that FEMA does not believe that it has been formally
assigned the authority, nor does it have the resources, to assess DHS component
COOP programs, plans, and capabilities. We agree that FEMA is an active
member of the DHS Working Group, has provided numerous COOP training
opportunities, and has coordinated government-wide COOP exercises.
However, we still contend that DHS has not provided the depth of oversight
necessary to determine the extent to which TSA, as well as other DHS
components, are maintaining a COOP plan and program that is current and
contains all required information as outlined in FPC 65. FEMA generally
agreed with our recommendation that MD 9300.1 needs to be revised to clearly
provide the authority necessary to fulfill a more robust COOP oversight role in
the Department.

While FEMA concurred with Recommendation #4, the agency did not tell us
specifically what actions it intends to take to resolve the recommendation.
Therefore, we consider the recommendation unresolved and open. We will
consider the recommendation closed and resolved when DHS Management
Directive 9300.1 is revised to reflect the current DHS organization and clearly
assigns and delineates COOP oversight responsibilities and authority to ensure
that all DHS components have a viable COOP program in full compliance with
FPC 65 that is capable of ensuring continuation of all essential functions under
all COOP situations.

A copy of FEMA’s entire response is included as Appendix B.




             Audit of TSA Continuity of Operations Program
                                Page 25
Appendix A
Purpose, Scope and Methodology



                  The objective of this audit was to determine whether TSA has a viable COOP
                  capability, which ensures the performance of its mission-essential functions
                  during any emergency situation that may disrupt normal operations.

                  Specifically, the audit determined whether:

                      •   TSA has a viable COOP capability and a COOP plan that meets
                          government-wide requirements and guidance that define a viable
                          COOP capability.

                      •   TSA and DHS provide effective guidance and oversight over TSA’s
                          COOP Plan and Program.

                  To determine whether the TSA has a viable HQ COOP plan that meets
                  government-wide requirements, we obtained and reviewed applicable federal
                  laws, directives, and regulations; the TSA HQ COOP Plan (dated August
                  2005); TSA COOP budget documentation; exercise reports; and associated
                  supporting documentation provided by the TSA COOP Program Manager, 19
                  Office Emergency Coordinators; and 4 airport COOP coordinators. We
                  compared the TSA HQ COOP Plan against the requirements of FPC 65 and
                  other TSA, DHS, and government-wide COOP guidance. Additionally, we
                  physically inspected two TSA AOFs in the Washington metropolitan area
                  established for COOP activation.

                  To obtain a thorough understanding of the TSA COOP program and oversight
                  provided by TSA and DHS, we interviewed the TSA COOP Program
                  Manager and his staff, 19 TSA Office Emergency Coordinators, COOP
                  coordinators from 4 category X airports, and FEMA officials responsible for
                  overseeing DHS COOP programs.

                  Our audit was conducted at TSA HQ between November 2005 and March
                  2006, in accordance with generally accepted government auditing standards
                  and in compliance with the laws and regulations to the extent necessary to
                  satisfy the audit objectives.




                              Audit of TSA Continuity of Operations Program
                                                 Page 26
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 27
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 28
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 29
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 30
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 31
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 32
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 33
Appendix B
Management Comments to Draft Report




                            Audit of TSA Continuity of Operations Program
                                               Page 34
Appendix C
Key Sources of Guidance for Federal COOP Planning



                   1. Executive Order 12148, Federal Emergency Management, July 20,
                      1979, as amended: Created the Federal Emergency Management Agency
                      (FEMA) and vested in it authorities and responsibilities related to civil
                      defense and emergency preparedness government-wide.

                   2. Executive Order 12656, Assignment of Emergency Preparedness
                      Responsibilities, November 18, 1988, as amended: Developed to ensure
                      that the United States would have sufficient capabilities at all levels of
                      government to meet essential defense and civilian needs during any
                      national security emergency. Under this Order, national security
                      preparedness responsibilities were assigned to the individual federal
                      departments and agencies. E.O. 12656 requires that the Director of FEMA
                      and the heads of departments and agencies must ensure that their
                      preparedness plans and activities are consistent with current presidential
                      guidelines and policies.

                   3. Executive Order 13286, Amendment of Executive Orders, and Other
                      Actions, in Connection With the Transfer of Certain Functions to the
                      Secretary of Homeland Security, February 28, 2003: The order
                      transfers authorities to the Secretary of Homeland Security in a variety of
                      policy areas, including those preparedness responsibilities assigned to the
                      Director of FEMA in E.O. 12656.

                   4. Presidential Decision Directive 67, Enduring Constitutional
                      Government and Continuity of Government Operations, October 21,
                      1998: Addresses the survival of United States government processes and
                      continuity of essential federal civilian functions in the event of a nuclear
                      attack or other disaster. This directive requires all federal departments and
                      agencies to develop formal COOP plans to ensure continuity of their
                      essential operations.

                   5. FPC 65, Federal Executive Branch Continuity of Operations, June 15,
                      2004: The primary document that provides the requirements that define a
                      viable COOP plan and program. FPC 65 was revised and reissued on June
                      15, 2004, superseding three previous continuity preparedness circulars:
                      FPC 65, Federal Executive Continuity of Operations (1999); FPC 66, Test,
                      Training, and Exercise (TT&E) Program for COOP (2001); and FPC 67,
                      Acquisition of Alternative Facilities for COOP (2001).




                               Audit of TSA Continuity of Operations Program
                                                  Page 35
Appendix D
Major Contributors to this Report



                    Philadelphia Audit Office

                    Timothy J. Crowe, Director
                    Mark S. Phillips, Auditor-in-Charge
                    Patrick O’Malley, Program Analyst
                    Christine Haynes, Auditor
                    Michael A. Talevi, Referencer




                                Audit of TSA Continuity of Operations Program
                                                   Page 36
Appendix E
Report Distribution


             Department of Homeland Security

             Secretary
             Deputy Secretary
             Chief of Staff
             Deputy Chief of Staff
             General Counsel
             Executive Secretary
             Chief Privacy Officer
             Assistant Secretary, Transportation Security Administration
             Director, Federal Emergency Management Agency
             Assistant Secretary for Policy
             Assistant Secretary for Public Affairs
             Assistant Secretary for Legislative and Intergovernmental Affairs
             Director, GAO/OIG Audit Liaison Office
             DHS OIG Liaison, TSA


             Office of Management and Budget

             Chief, Homeland Security Branch
             DHS OIG Budget Examiner


             Congress

             Congressional Oversight and Appropriations Committees, as appropriate




                                 Audit of TSA Continuity of Operations Program
                                                    Page 37
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
